               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2013 Postal Service
         Financial Statements Audit –
          Eagan Accounting Services

                       Audit Report




                                              February 24, 2014

Report Number FT-AR-14-006
                                                                     February 24, 2014

                                                     Fiscal Year 2013 Postal Service
                                                        Financial Statements Audit –
                                                         Eagan Accounting Services

                                                        Report Number FT-AR-14-006



BACKGROUND:
The U.S. Postal Service Eagan               account balances conformed to the
Accounting Services is responsible for      general classification of accounts. In
processing payroll, maintaining the         addition, it complied with laws having a
general ledger, reconciling financial       direct and material effect on the financial
data, and maintaining cash and              statements. Finally, the Financial
receivable accounts. The Postal             Testing Compliance group properly
Service’s Financial Testing Compliance      tested, documented, and reported its
group is responsible for examining key      examination of key financial reporting
financial reporting controls.               controls.

Our objectives were to determine            We did not propose any account
whether Eagan Accounting Services:          balance adjustments; however, we
                                            reviewed internal controls over financial
   Accounting transactions were fairly     reporting and identified a control
    stated, and selected controls were      deficiency related to the retirement
    designed and operating effectively.     contributions reporting for law
   Ensured account balances followed       enforcement employees hired on or
    the Postal Service's general            after January 1, 2013. Specifically, due
    classification of accounts consistent   to insufficient guidance from the Office
    with that of the previous year.         of Personnel Management, the Postal
   Complied with laws having a direct      Service misreported $455,493 in
    and material effect on the financial    retirement contributions for newly hired
    statements taken as a whole.            law enforcement personnel. Accurate
                                            retirement contribution reporting is
We also determined whether the              important to ensure accurate retirement
Financial Testing Compliance group          liability estimates.
properly tested, documented, and
reported its examination of key financial   WHAT THE OIG RECOMMENDED:
reporting controls.                         Management corrected the contribution
                                            reporting during the audit; therefore, we
WHAT THE OIG FOUND:                         made no recommendations.
Eagan Accounting Services’ accounting
transactions were fairly stated and         Link to review the entire report
February 24, 2014

MEMORANDUM FOR:            SCOTT G. DAVIS
                           ACTING VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Fiscal Year 2013 Postal Service Financial
                           Statements Audit – Eagan Accounting Services
                           (Report Number FT-AR-14-006)

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Eagan, MN, Accounting Services for the
fiscal year ended September 30, 2013 (Project Number 13BM001FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Fiscal Year 2013 Postal Service Financial Statements Audit –                                                       FT-AR-14-006
 Eagan Accounting Services




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Federal Employees Retirement System-Revised Annuity Employees Law Enforcement

   Retirement Contributions Reporting ............................................................................ 2

Management’s Comments .............................................................................................. 2

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 5

Appendix B: Other Impact ............................................................................................... 7

Appendix C: Management’s Comments .......................................................................... 8
Fiscal Year 2013 Postal Service Financial Statements Audit –                                        FT-AR-14-006
 Eagan Accounting Services



Introduction

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in Eagan, MN, for
the fiscal year (FY) ended September 30, 2013 (Project Number 13BM001FT000).

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service's financial statements. In addition, the Sarbanes-Oxley (SOX) law was
enacted in 2002 to strengthen public confidence in the accuracy and reliability of
financial reporting. Section 404 of SOX requires management to state its responsibility
for establishing and maintaining adequate internal controls over financial reporting. The
Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX. The Postal Service Board of Governors (Board)
contracted with an independent public accounting firm (IPA) to express opinions on the
Postal Service's financial statements and internal controls over financial reporting. Our
audit augments the IPA’s opinions. See Appendix A for additional information about this
audit.

Conclusion

During our audit of Eagan Accounting Services, we noted that:

   Accounting transactions were fairly stated in the general ledger and selected key
    controls surrounding those transactions were designed and operating effectively.

   General ledger account balances conformed to the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations having a direct and material
    effect on the financial statements taken as a whole.

Finally, the Financial Testing Compliance group properly tested, documented, and
reported its examination of key financial reporting controls. We did not propose any
adjustments or identify any issues that were material to the financial statements or that
would affect the overall adequacy of internal controls. However, throughout the year, we
reviewed internal controls over financial reporting and identified a control deficiency1
related to the retirement contributions reporting for Federal Employees Retirement
System-Revised Annuity Employees (FERS-RAE)2 in law enforcement.




1
  A control deficiency exists when the design or operation does not allow management or employees, in the normal
course of performing their assigned functions, to prevent or detect and correct misstatements timely.
2
  Employees hired on or after January 1, 2013, whose contribution share increased due to Public Law 112-96, dated
February 22, 2012.
                                                           1
Fiscal Year 2013 Postal Service Financial Statements Audit –                                          FT-AR-14-006
 Eagan Accounting Services


In addition, the IPA identified control deficiencies affecting Eagan Accounting Services
that were not in the scope of our audit and are not reported here. The IPA informed
management of these issues on October 31, 2013.

Federal Employees Retirement System-Revised Annuity Employees Law
Enforcement Retirement Contributions Reporting

For the period January 12–August 23, 2013, the Postal Service reported contributions
for FERS-RAE law enforcement employees as FERS regular employees.3 The Office of
Personnel Management (OPM) classifies FERS contributions separately for regular and
law enforcement employees. The OPM did not provide comprehensive guidance on
how to report FERS-RAE contributions nor did it update the report form4 to include
separate categories for these employees. The Postal Service calculated and paid the
FERS-RAE contributions correctly; however, because of incomplete OPM guidance, it
combined FERS-RAE law enforcement contributions with FERS regular contributions in
the biweekly reports. In our opinion, FERS-RAE law enforcement contributions should
be combined and reported with the similar FERS law enforcement contributions rather
than with FERS regular contributions. Retirement classifications are important for the
OPM to properly estimate the Postal Service's retirement liability.

We found the Postal Service misreported $455,493 of FERS-RAE contributions from
January 12 through August 23, 2013. This led to a projected other impact of about
$7.5 million annually had the Postal Service continued to combine FERS-RAE law
enforcement contributions with FERS regular contributions. See Appendix B for other
impact.

We discussed the issue with Postal Service management on September 6, 2013, and
management agreed with our position. Thereafter, management began reporting
FERS-RAE law enforcement contributions with other FERS law enforcement
contributions in the reports. Additionally, management retroactively adjusted all prior
FERS-RAE law enforcement contributions. Because management took corrective action
during our audit, we are not offering a recommendation.

Management’s Comments

Although the report contains no recommendations, management disagreed with the
other impact calculation. Management stated the statistical projection is irrelevant,
incomplete, misleading, and invalid because the issue was remediated. Furthermore,
management thinks we should base the statistical projection on more historical data
with a fairer, more precise statistical model. See Appendix C for management’s
comments, in their entirety.



3
 Regular employees are defined as "employees other than law enforcement or firefighter employees."
4
 The Postal Service reports its retirement benefits biweekly, by category, to the OPM on the Report of Withholdings
and Contributions for Health Benefits, Life Insurance and Retirement (Standard Form 2812).


                                                         2
Fiscal Year 2013 Postal Service Financial Statements Audit –                  FT-AR-14-006
 Eagan Accounting Services



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the finding in the report. Our report disclosed that management
took corrective action during the audit. The corrective action was a direct result of the
OIG’s discussions with management. Had the OIG not performed the audit or identified
the issue, the Postal Service may have continued to misclassify retirement
contributions. Accordingly, we calculated other impact to capture this possibility.

Since management took corrective action and no further errors were likely to occur, we
chose a conservative, simple, and statistically valid model for the projection. We based
the projection on 100 percent of the data from the date the error was noted through the
date the error was corrected. We reported the projection as other impact and
categorized it as data integrity as opposed to more elevated categories under monetary
impact. While we recognize that we could have used other statistical models, we believe
we chose the best, most conservative method under the circumstances.




                                                     3
Fiscal Year 2013 Postal Service Financial Statements Audit –                                        FT-AR-14-006
 Eagan Accounting Services


                                Appendix A: Additional Information

Background

Eagan Accounting Services is one of three Postal Service accounting services 5 and
functions as a large, centralized accounting and disbursement center. Its employees
process payroll, maintain the general ledger, reconcile financial data, and maintain cash
and receivable accounts. The Postal Service’s Financial Testing Compliance group is
responsible for examining key financial reporting controls.

FERS is an OPM-administered pension program offered to eligible Postal Service
employees. The FERS contribution rate is based on a percentage of an employee’s
salary. For FERS regular employees, the contribution rate is 12.7 percent, 0.8 percent
of which is paid by the employee and 11.9 percent of which is paid by the Postal
Service. For FERS law enforcement employees, the contribution rate is 27.6 percent,
1.3 percent of which the employee pays and 26.3 percent of which the Postal Service
pays.

Effective January 1, 2013, the OPM classified newly hired employees as FERS-RAE
and increased the FERS-RAE regular employee contribution rate to 3.1 percent, while
the Postal Service’s contribution rate decreased to 9.6 percent. For FERS-RAE law
enforcement employees, the contribution rate increased to 3.6 percent while the Postal
Service’s contribution rate decreased to 24 percent. The Postal Service reports its
retirement benefits biweekly, by category, to the OPM on a Standard Form 2812.

We will issue separate reports for St. Louis Accounting Services and San Mateo
Accounting Services and issue a separate financial statements audit report for
headquarters. Further, in addition to the overall opinions on the Postal Service's
financial statements and internal controls over financial reporting, the Board's IPA
issued a separate report on its consideration of the Postal Service's internal controls
and its test of compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report was to describe the scope of testing of internal
controls over financial reporting and compliance and the results of that testing, not to
provide an opinion on internal controls over financial reporting or on compliance.6 The
OIG will also issue a separate report for the audit of FY 2013 information system
controls at the Eagan, San Mateo, and St. Louis information technology and accounting
service centers; and the Raleigh ITSC.




5
 Other accounting services are in St. Louis, MO, and San Mateo, CA.
6
 In addition to the IPA's work, these reports encompass work the OIG performed at headquarters, the three Solutions
Development and Support field sites, and the Raleigh, NC, Information Technology Service Center (ITSC).


                                                        4
Fiscal Year 2013 Postal Service Financial Statements Audit –                                           FT-AR-14-006
 Eagan Accounting Services



Objectives, Scope, and Methodology

The objectives of the audit were to determine whether Eagan Accounting Services:7

   Fairly stated accounting transactions were in the general ledger and selected key
    controls surrounding those transactions were designed and operating effectively.

   Ensured general ledger account balances conformed to the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.

   Complied with laws and regulations having a direct and material effect on the
    financial statements taken as a whole.

In addition, we determined whether the Financial Testing Compliance group properly
tested, documented, and reported its examination of key financial reporting controls.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. The OIG originated independent audit tests and re-performed key
control tests the Postal Service originally completed. We conducted this audit from
November 2012 through February 20148 in accordance with the standards of the Public
Company Accounting Oversight Board (PCAOB) and the standards applicable to
financial audits contained in the Government Auditing Standards issued by the
comptroller general of the U.S. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to limit audit risk to a level that is, in our
professional judgment, appropriate for supporting the overall audit opinion on financial
statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the audit objectives. An audit also requires a sufficient understanding of
internal controls to plan the audit and determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management on January 8, 2014, and
included their comments where appropriate.


7
  The IPA maintains overall responsibility for testing and reviewing significant Eagan Accounting Services accounts
and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
8
  The scope of our audit was October 1, 2012, through September 30, 2013.


                                                          5
Fiscal Year 2013 Postal Service Financial Statements Audit –                                       FT-AR-14-006
 Eagan Accounting Services


We relied on computer-generated data from Postal Service financial systems, including:

    Accounting Enterprise Data Warehouse Reporting.9
    National Accounting Oracle Financial Application.10
    Payroll Systems.11

To assess the reliability of these systems' data, we performed specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we traced general ledger data from the National
Accounting Oracle Financial Application System to the Accounting Enterprise Data
Warehouse Reporting System. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

                                                                         Final
                                                                        Report
                                                                          Monetary Impact
              Report Title             Report Number                     Date(in millions)
    Fiscal Year 2012 Postal             FT-AR-13-009                   2/5/2013  None
    Service Financial Statements
    Audit – Eagan Accounting
    Services
    Report Results:
    We did not propose any adjustments or report any significant issues. Management
    took corrective action in August 2013 to revise the policy for retaining Combined
    Federal Campaign documents for 4 years. Management agreed with the
    recommendation.

    Fiscal Year 2011 Postal           FT-AR-12-007      12/19/2011       $28,758,859
    Service Financial Statements
    Audit – Eagan Information
    Technology and Accounting
    Service Center
    Report Results:
    We did not propose any adjustments or report any significant issues and did not
    make any recommendations. Management took corrective action during our audit to
    improve their methodology of estimating the unemployment compensation liability
    accrual and reduced the accrual by $28.8 million.



9
  A reporting technology in the areas of accounts payable, complement, finance number control master, general
ledger and financial performance, payroll summary, property and equipment, and standard accounting for retail.
10
   A replacement accounting system that provides a comprehensive intranet solution in a web-enabled environment
that improves reporting capability and efficiency and automates data entry and collection.
11
   A biweekly payroll system that compensates all employees, including pay compensation rules and employee pay
history.


                                                        6
Fiscal Year 2013 Postal Service Financial Statements Audit –                                           FT-AR-14-006
 Eagan Accounting Services


                                        Appendix B: Other Impact

                    Finding                Impact Category                        Amount
                       1                    Data Integrity12                    $14,965,842

Using regression analysis,13 we projected other impact for 2 years based on an audit
universe of $581,476 in actual FERS-RAE contributions made from January 12 through
September 20, 2013. For the period January 12 through August 23, 2013, the Postal
Service reported contributions for FERS-RAE law enforcement employees as FERS
regular employees. The Postal Service retroactively adjusted retirement contributions to
September 20, 2013. The adjustments were the result of our audit work; therefore, we
included this actual data through September 20, 2013, in our projection. The use of
actual FERS-RAE contributions made through September 20, 2013, provided greater
statistical accuracy than using data through August 23, 2013.

We included 100 percent of the actual historical data in the statistical projection and did
not include other proximal causes (for example, attrition). Given the historical data and
current assumptions, we are 95 percent confident that the true average variation in
actual values will be within $1,312 of our projection and we are 99 percent confident
that it will be within $1,803.




12
  Validation of the consistency, accuracy, and completeness of Postal Service data.
13
  A statistical process for estimating the relationships among variables. It includes techniques for modeling and
analyzing variables with a focus on the relationship between a dependent variable and one or more independent
variables.


                                                          7
Fiscal Year 2013 Postal Service Financial Statements Audit –    FT-AR-14-006
 Eagan Accounting Services


                            Appendix C: Management’s Comments




                                                     8
Fiscal Year 2013 Postal Service Financial Statements Audit –   FT-AR-14-006
 Eagan Accounting Services




                                                     9
